TO:           Administrator
              Chief Financial Officer

FROM:         Inspector General

SUBJECT:      Audit of the National Aeronautics and Space Administration’s
              Fiscal Year 2007 Financial Statements (Report No. IG-08-001)


Under the Chief Financial Officers Act of 1990, NASA’s financial statements are to be
audited in accordance with generally accepted government auditing standards. The
Office of Inspector General contracted with the independent certified public accounting
firm Ernst & Young LLP (E&Y) to audit NASA’s financial statements in accordance
with Government Auditing Standards and Office of Management and Budget’s Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements.

In the Report of Independent Auditors (Enclosure 1), E&Y disclaimed an opinion on
NASA’s financial statements for the fiscal years ended September 30, 2007 and 2006.
The disclaimer resulted from NASA’s inability to provide E&Y auditable financial
statements and sufficient evidence to support the financial statements throughout the
fiscal year and at year-end.

The E&Y Report on Internal Control (Enclosure 2) includes two significant deficiencies,
which are considered to be material weaknesses. Material weaknesses were found in
NASA’s controls for (1) financial systems, analyses, and oversight used to prepare the
financial statements, and (2) assuring that property, plant, and equipment and materials
are presented fairly in the financial statements. These material weaknesses have been
reported for several years.

The E&Y Report on Compliance with Laws and Regulations (Enclosure 3) identifies
several instances in which NASA’s financial management systems did not substantially
comply with the requirements of the Federal Financial Management Improvement Act of
1996 (FFMIA). For example, the report notes that certain subsidiary systems, including
property, are not integrated with the Core Financial module and are not complemented by
sufficient manual preventative and detect type controls.

NASA made progress in improving its internal controls, including resolving its fund
balance with Treasury imbalances; redesigning its approach and supporting processes
for implementing the requirements of the Improper Payments Information Act of 2002;
developing interim tools and reports for analyzing financial statement accounts, to
include aging reports; and implementing requirements for analysis of monthly
                                                                                           2

comparative financial statements by NASA Centers. However, NASA management
and E&Y continued to identify weaknesses in Agency-wide internal controls, which
impaired NASA’s ability to report accurate financial information on a timely basis.

In FY 2007, NASA prepared a corrective action plan to address the material weaknesses
and recommendations noted in the FY 2006 financial statement audit report. NASA
should update that corrective action plan to address the findings detailed in the enclosed
reports and to address material weaknesses identified in the Administrator’s Statement of
Assurance. That plan must be detailed enough to ensure successful implementation with
desired results. In addition, NASA must continue to

   •   ensure that the Office of the Chief Financial Officer is staffed with properly
       trained personnel who can address the Agency’s financial management and
       accountability challenges;

   •   ensure that accounting practices are consistent with applicable standards and are
       consistently applied;

   •   establish internal controls that provide reasonable assurance that the financial
       statements are supported, complete, and accurate; and

   •   implement recommendations made in E&Y’s Report on Internal Control, as
       well as those made by our office and the Government Accountability Office.

E&Y is responsible for each of the enclosed reports and the conclusions expressed
therein. Accordingly, we do not express an opinion on NASA’s financial statements,
internal controls over financial reporting, or compliance with certain laws and
regulations, including, but not limited to, FFMIA.

In fulfilling our responsibilities under the Chief Financial Officers Act of 1990, we
provided oversight and technical support. We monitored the progress of E&Y’s audit,
reviewed reports submitted by E&Y, and ensured that E&Y met contractual
requirements.


   signed

Robert W. Cobb

3 Enclosures
                                                          Ernst & Young LLP            Phone: (202) 327-6000
                                                           1101 New York Avenue NW       Fax:     (202) 327-6200
                                                           Washington, DC 20005          www.ey.com




                                 Report of Independent Auditors


To the Administrator and the Office of Inspector General
of the National Aeronautics and Space Administration


We were engaged to audit the accompanying consolidated balance sheets of the National
Aeronautics and Space Administration (NASA) as of September 30, 2007 and 2006, and the
related consolidated statements of net cost, and changes in net position and combined statements
of budgetary resources for the fiscal years then ended. These financial statements are the
responsibility of NASA’s management.

During fiscal year (FY) 2003, NASA implemented an Integrated Financial Management Program
(IFMP) system (now referred to as the Integrated Enterprise Management Program [IEMP]
system), specifically the Core Financial Module. NASA’s management identified significant
errors beginning with its September 30, 2003 financial statements resulting from the
implementation of IEMP. During FY 2004 through FY 2007, NASA’s management continued
to make progress in overcoming certain weaknesses it had identified in its financial management
processes and systems. In FY 2007, NASA implemented a system upgrade to resolve certain
system configuration issues, updated and implemented new policies and procedures in its
financial management processes, and performed research and resolved certain data issues that
had plagued the integrity of the financial management system since 2003. Although significant
progress had been made, many improvements were either completed during the final quarter of
FY 2007 or are ongoing. Additionally, NASA management and our work continue to identify
issues related to internal control and retention of documentation related to its property
accounting. As a result of these limitations, we were unable to obtain sufficient evidential
support for the amounts presented in the consolidated balance sheets as of September 30, 2007
and 2006, and the related consolidated statements of net costs, and changes in net position and
combined statements of budgetary resources for the fiscal years then ended.

Because of the matters discussed in the preceding paragraph, the scope of our work was not
sufficient to enable us to express, and we do not express, an opinion on the consolidated balance
sheets as of September 30, 2007 and 2006, and the related consolidated statements of net cost,
statements of changes in net position, and combined statements of budgetary resources for the
fiscal years then ended.

In its preparation and analysis of its September 30, 2007 and 2006 financial statements, NASA
identified certain configuration and data integrity issues and errors in balances reported on its
financial statements. The notes to the financial statements describe certain potential departures
from accounting principles generally accepted in the United States of America in NASA’s FY
2007 and FY 2006 financial statements.




                                A Member Practice of Ernst & Young Global
                                                Ernst & Young LLP
!@
Report of Independent Auditors
Page 2



As further discussed in the notes to the financial statements, pursuant to guidance issued by the
Office of Management and Budget (OMB), certain information reconciling the net costs of
operations to budgetary obligations, which was previously reported in a consolidated statement
of financing for the fiscal year ended September 30, 2006, has been presented in the notes to the
financial statements, along with the corresponding amounts for the fiscal year ended
September 30, 2007. Additionally, as discussed in Note 1 to the financial statements, in FY 2007
NASA changed its accounting policy for Property, Plant, and Equipment (PP&E) to reclassify
$12.7 billion of general PP&E to research and development expenses.

The information presented in the Management’s Discussion and Analysis (MD&A)—the
Required Supplementary Stewardship Information and the Required Supplementary
Information—is not a required part of the NASA’s financial statements, but is considered
supplementary information required by OMB Circular A-136, Financial Reporting
Requirements. Such information has not been subjected to auditing procedures, and accordingly,
we express no opinion on it. We were unable to apply to the information certain procedures
prescribed by professional standards within the time frames established by OMB because of the
limitations on the scope of our audit of the financial statements discussed above.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, Audit
Requirements for Federal Financial Statements, we have also issued our reports dated
November 13, 2007, on our consideration of NASA’s internal control over financial reporting
and on our tests of its compliance with certain provisions of laws, regulations, and other matters.
The purpose of those reports is to describe the scope of our testing of internal control over
financial reporting and compliance and the results of that testing and not to provide an opinion
on the internal control over financial reporting or on compliance. Those reports are an integral
part of an audit performed in accordance with Government Auditing Standards and OMB
Bulletin No. 07-04 and should be considered in assessing the results of our work.




November 13, 2007
Washington, D.C.
                                                           Ernst & Young LLP            Phone: (202) 327-6000
                                                            1101 New York Avenue NW       Fax:     (202) 327-6200
                                                            Washington, DC 20005          www.ey.com




                                   Report on Internal Control


To the Administrator and the Office of Inspector General
of the National Aeronautics and Space Administration


We were engaged to audit the financial statements of the National Aeronautics and Space
Administration (NASA or the Agency) as of and for the year ended September 30, 2007, and
have issued our report thereon dated November 13, 2007. The report states that because of the
matters discussed therein, the scope of our work was not sufficient to enable us to express, and
we do not express, an opinion on the consolidated balance sheet as of September 30, 2007, and
the related consolidated statements of net costs and changes in net position and combined
statement of budgetary resources for the fiscal year then ended.

In planning and performing our audit, we considered NASA’s internal control over financial
reporting as a basis for developing our auditing procedures for the purpose of expressing our
opinion on the financial statements, which we were ultimately not able to do, and not for the
purpose of expressing an opinion on the effectiveness of NASA’s internal control over financial
reporting. Accordingly, we do not express an opinion on the effectiveness of NASA’s internal
control over financial reporting. We limited our internal control testing to those controls
necessary to achieve the objectives described in Office of Management and Budget (OMB)
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements. We did not test all
internal controls relevant to operating objectives as broadly defined by the Federal Managers’
Financial Integrity Act of 1982 (FMFIA), such as those controls relevant to ensuring efficient
operations.

In addition, with respect to NASA’s internal control over Required Supplementary Stewardship
Information and performance measures reported in the Management Discussion and Analysis
(MD&A), we were unable to apply certain procedures prescribed by OMB Bulletin No. 07-04
because of the limitations on the scope of the audit of the financial statements, as discussed in
our Report of Independent Auditors, dated November 13, 2007. Further, we did not audit and do
not express an opinion on such controls.

Our consideration of internal control over financial reporting was for the limited purposes
described in the preceding paragraphs and would not necessarily identify all deficiencies in
internal control over financial reporting that might be significant deficiencies or material
weaknesses. However, as discussed below, we identified certain deficiencies in internal control
over financial reporting that we consider to be significant deficiencies.

A control deficiency exists when the design or operation of a control does not allow management
or employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination
of control deficiencies, that adversely affects the entity’s ability to initiate, authorize, record,


                                 A Member Practice of Ernst & Young Global
                                                 Ernst & Young LLP
!@
Report on Internal Control
Page 2



process, or report financial data reliably in accordance with generally accepted accounting
principles (GAAP) such that there is more than a remote likelihood that a misstatement of the
entity’s financial statements that is more than inconsequential will not be prevented or detected
by the entity’s internal control. We consider the deficiencies described below to be significant
deficiencies in internal control over financial reporting.

A material weakness is a significant deficiency, or combination of significant deficiencies, that
results in more than a remote likelihood that a material misstatement of the financial statements
will not be prevented or detected by the entity’s internal control. Our consideration of the
internal control over financial reporting was for the limited purpose described above and would
not necessarily identify all deficiencies in the internal control that might be significant
deficiencies and, accordingly, would not necessarily disclose all significant deficiencies that are
also considered to be material weaknesses. However, we consider both matters noted—Financial
Systems, Analyses, and Oversight; and Enhancements Needed for Controls over Property, Plant,
and Equipment (PP&E) and Materials—to be material weaknesses.


                                  MATERIAL WEAKNESSES


Financial Systems, Analyses, and Oversight (Modified Repeat Condition)

Overview

In fiscal year (FY) 2002, NASA initiated an agency-wide effort to improve its financial
management by providing a single integrated suite of financial, project, contract, and human
capital tools and by implementing improved internal control processes to help manage NASA’s
programs and prepare financial information on a timely basis consistent with evolving OMB
guidance. As part of that process, in FY 2003, NASA implemented its Integrated Enterprise
Management Program (IEMP) system, specifically the Core Financial Module. This conversion
effort necessitated complex data cleanup and reprogramming due to system configuration
anomalies.

Beginning with its September 30, 2003, financial statements, NASA’s management identified
significant issues resulting from the implementation of the IEMP system. In the years that
followed, NASA has reorganized its financial management structure, implemented new
processes, upgraded its system, developed new guidance, and provided training to its personnel
to address these issues. For example, in FY 2007, NASA management indicated that progress
had been made in several areas, including:

    •   Core Financial Systems Improvements—NASA implemented a major system update
        release with the start of the fiscal year to overcome certain issues identified with the Core
        Financial Module. The Agency is currently preparing for an additional system update
        planned for the end of the fiscal year.
                                                Ernst & Young LLP
!@
Report on Internal Control
Page 3


    •   Fund Balance with Treasury—NASA completed its efforts in resolving its fund balance
        with Treasury imbalance. Our review of the fund balance with Treasury reconciliations
        noted that reconciliations were performed effectively with timely resolution of current
        differences.
    •   Data Integrity Resolution Efforts—During FY 2007, NASA continued to research and
        resolve certain data integrity issues dating back to 2003. These “clean-up” efforts
        occurred throughout the year, and included adjustments to data from prior periods.
    •   Implementation of Improper Payments Information Act Requirements—NASA has
        redesigned its approach and supporting processes for implementing the requirements of
        the Improper Payments Information Act to more fully comply with all elements of the
        Act. The changes included a risk assessment that calls for reviewing payments by project
        rather than by contract and clarifying the criteria that constitute an improper payment.
    •   New Tools and Reports—NASA developed interim tools and reports for Aging and
        Monitoring Analysis of Undelivered Orders, Accounts Receivable, Accounts Payable,
        and Intra-NASA Trading Partner reconciliations. Specifically, NASA expanded the
        financial management metric set to include the additional reports, developed in-depth
        trend data to support analysis, performed in-depth metrics analysis and communicated
        anomalies or issues to NASA Centers (Centers) for correction, automated 16 standard
        reports, and updated performance metric definitions to reflect changes and updates.
    •   Implemented Monthly Financial Statements and Analysis—NASA implemented
        comparative financial reporting and analysis for all NASA Centers. The NASA Centers
        review their financial statements and provide explanations for variances from prior
        periods.
    •   Enhanced Monitoring and Controls—NASA enhanced monthly monitoring and control
        procedures by establishing and implementing enhanced reconciliation and monitoring
        procedures for the Centers. These include redefining the Center Chief Financial Officer
        (CFO) signature certification and adding a Center Deputy CFO signature review of the
        financial results, an explanation of impacts and the anticipated date of corrective action.
        Although still noting issues, we found that progress had been made in its entity-wide
        monitoring controls.
    •   Accelerated Review of Monthly Financial Data—NASA implemented the critical path
        for accelerated reporting of specific monitoring review areas by the 12th workday of the
        following month. These review areas include: fund balance with Treasury, budget,
        property, financial analysis, accounts receivables, accounts payables, intra-governmental,
        and flux analysis.
    •   Improved Center-to-Center Reconciliations—NASA instituted a process to reconcile and
        resolve differences with transactions between NASA Centers.
    •   Completed Employee Receivables Review—NASA completed a review of employee
        receivables to determine the root causes and potential solutions to reducing outstanding
        employee receivables and minimizing creation of new employee receivables. Based on
                                                Ernst & Young LLP
!@
Report on Internal Control
Page 4


        the results of NASA’s corrective actions, we noted progress in the accounting for and
        reporting of accounts receivable.
    •   Updated Financial Management Policies—NASA published updated guidance in its
        Financial Management Requirements (FMR) in the following areas: Accounts
        Receivable, Environmental Liabilities, PP&E, Labor Distribution, Budgeting, Travel, and
        Journal Voucher Preparation and Approval.
    •   Completed Reorganization Plan for Headquarters Office of the Chief Financial Officer
        (OCFO)—The plan identifies staffing shortages (within headcount guidelines) and
        provides NASA with the information needed to continue the Headquarters’ hiring
        strategy.
    •   Established Budget Execution Performance Goals and Analysis—NASA developed goals
        for monthly obligations and costs that permit Agency leadership to evaluate how well the
        Agency is executing its budget throughout the fiscal year. Additionally, NASA
        developed and implemented monthly analyses to determine how well NASA is executing
        against its established budgets.

However, through the end of FY 2007, NASA management’s review and the results of our audit
procedures continued to identify weaknesses in entity-wide internal control, which impaired
NASA’s ability to report accurate financial information on a timely basis. In many cases the
progress noted above and related processes continued to be developed in FY 2007 and will
require additional refinements in FY 2008.

Routine Reconciliation, Analyses, and Oversight Processes

During FY 2007, NASA implemented significant improvements in its reconciliation, analyses,
and oversight processes. We noted that many of the improvements were not implemented until
late in the year and management has indicated that other actions will not be completed until FY
2008. As this progress is institutionalized and the functioning of these processes mature, the
effects of these improvements hold promise in helping provide NASA the ability to report
accurate financial information in a timely fashion.

Financial Statement Preparation Processes

Our review of NASA’s financial statement preparation process identified certain issues
impacting NASA’s ability to effectively accumulate, assemble, and analyze information to
timely develop its financial statements on a routine and recurring basis. Currently, although
processes continue to be improved, data integrity issues and evolving account reconciliation,
periodic analysis, and financial statement closing processes continue to provide challenges in the
timely development of auditable financial statements. The following represent issues identified
during the financial statement preparation process:
                                                 Ernst & Young LLP
!@
Report on Internal Control
Page 5


    •   Accelerated Financial Reporting—The requirement that each agency submit its Agency
        Financial Report (AFR) by November 15 has created challenges for all agencies. The
        completed AFR for NASA was not available until October 30, 2007, which did not
        provide sufficient time to meet deadlines for completion of the audit, review, and
        submission processes. Many agencies have accelerated their AFR process by providing
        data to be included in the MD&A and other information as of an earlier date, and holding
        only very limited sections open for updates of information. Further, for both interim and
        year-end financial statements, certain analyses were not performed by Headquarters
        OCFO until after the financial statements were submitted for audit purposes, suggesting
        that review processes may not be fully effective.
    •   Accounting For Intra-governmental Reporting—For the third quarter financial
        statements, NASA had attempted to confirm but was unable to reconcile all of its intra-
        governmental balances with its trading partners. Our review of the Treasury difference
        report identified over $700 million for which NASA could not substantiate the reasons
        for differences with its trading partners.
    •   Quarterly Fluctuation Analyses—Although NASA had indicated that it performed, and
        upper management had reviewed, its quarterly fluctuation analyses of its financial
        information to identify unusual balances, our review of NASA’s analysis of its
        September 30, 2007 financial statements identified inconsistencies, which required
        further explanation.
    •   Financial Statement Accrual Processes—We noted that adequate documentation to
        support certain transactions or disclosures were not readily available. Our testing of
        transactions and disclosures identified several items where we did not receive sufficient
        information to determine if the transaction was valid or the disclosure was appropriately
        supported. For example, NASA could not provide documentation to support its assertion
        that certain accruals were either not necessary to be recorded in its financial statements or
        accruals that were recorded as of September 30, 2007, could be substantiated. For
        example, during the fourth quarter, NASA management asserted that a grant accrual was
        unnecessary due to immateriality even though conflicting information from its grant
        processor indicated that the amount could be material. Management developed a paper
        explaining its view; however, it had not resolved issues with its grant processor as of
        October 30, 2007. Additionally, as part of the explanation, management indicated that
        grantees had accelerated their billings, drawing down funds for the month of September
        no later than September 15, 2007; however, we were unable to assess the effectiveness of
        this process, and whether grantees and contractors accelerated all billings for services
        rendered through September 30. To the extent such processes are not consistent with
        Federal Acquisition Regulations (FAR) or cost principles associated with execution of
        grants, it is possible that grantees and contractors would not have advance billed NASA
        for services that they would normally have drawn down funds for, or invoiced for in late
        October or November. Depending on the results seen by NASA in the beginning of FY
        2008 through a review of subsequent grantee reports of expenditures, it may be possible
        to modify this approach to incorporate an estimate for any remaining necessary accrual.
                                                Ernst & Young LLP
!@
Report on Internal Control
Page 6


Recommendation

We recommend that NASA continue to develop and refine its financial management systems and
processes to improve its financial statement preparation process. Specifically, we recommend
that NASA:

    1. Continue to improve its financial reporting and internal quality review procedures to
       reasonably assure that information presented in the interim financial statements and
       Agency Financial Report are accurate, fully supported, and completed timely and
       consistent with the requirements of OMB Circular A-136, Financial Reporting
       Requirements, including rigorous use of checklists and enhanced supervisory review
       processes. Additionally, data analysis efforts should be completed earlier in the year to
       ensure year-end financial statement processes are expedited allowing sufficient time for
       reviews by upper management of the financial statements and supporting documentation.
       Mock runs of the complete year end financial statement preparation process during the
       third quarter are suggested to ensure processes, including the development and a
       historical “look-back” of accruals, are in place, documentation is available, and personnel
       are aware of their responsibilities to meet OMB deadlines.
    2. Continue to enhance its procedures related to confirming intra-governmental balances
       with its trading partners so that significant differences identified through the Treasury
       quarterly process do not exist. NASA should be proactive when confirming transactions
       and balances with non-responsive trading partners. Working with OMB is necessary to
       get differences resolved timely.
    3. Strive to stabilize data in its Core Financial Module, making sure that significant non-
       routine adjustments, related to data integrity, are not required especially during the last
       two quarters of FY 2008 and going forward. Additionally, NASA should continue to
       validate its data; and when issues are identified, complete service requests related to data
       integrity and configuration and design issues timely.
    4. Continue to devise short-term and long-term resolutions to systematic and integration
       issues that complicate use of the IEMP. NASA should continue to assess whether
       systems used to prepare the financial statements have been sufficiently tested prior to
       year-end reporting dates.
    5. Continue to focus on filling vacancies within the financial management organization to
       enhance overall performance and develop a core team of highly qualified individuals with
       experience in NASA’s financial management processes.
    6. Continue to offer updated guidance and training to personnel to ensure specific guidelines
       are documented as to the source of data to support the periodic monitoring submissions
       and the financial statements, required follow-up with timetables, and documentation
       retention policies. Further, training should be provided to Center and Headquarters
       personnel to ensure a complete understanding of the financial management system and
       reports that are available to perform certain tasks.
                                                Ernst & Young LLP
!@
Report on Internal Control
Page 7


Periodic Monitoring Package Submission

As reported in FY 2006, NASA management has developed an entity-wide structure for routine
reconciliation, analyses, and oversight processes. The periodic monitoring package, a monthly
process performed at the Centers and forwarded to Headquarters, is designed to identify issues
impacting the integrity of the Centers’ financial management information and provides a means
for communication and tracking of the issues centrally within the Headquarters OCFO. Each
analysis is required to include a coversheet depicting the preparer’s and reviewer’s sign off,
whether exceptions exist, and what the exceptions are.

Throughout FY 2007, NASA management continued to refine its process by accelerating certain
steps to support its financial statement preparation process, issuing more detailed guidance and
providing more training to personnel in the Centers to ensure consistency within NASA. Our
review of these submissions and the related support maintained at the Centers identified progress
at the Centers in identifying issues, including system configuration concerns, continuing data
integrity issues—dating back prior to the system conversion in 2003, and other issues requiring
immediate attention by NASA management. However, our review of these packages also
identified certain weaknesses in processes that could impair NASA’s ability to correct material
errors in a timely fashion and report reliable information in its financial statements. Specific
concerns are as follows:

    •   Inconsistency in Summaries and Supporting Documentation—During our review of the
        high level summaries attached to each monitoring package, we noted that in certain cases,
        although the summary would indicate no exceptions, the supporting documentation
        would either identify exceptions that were not reported to Headquarters or the Center had
        not completed the step by the time the submission was forwarded to Headquarters. For
        example, we noted one Center had not completed its fund balance with Treasury
        reconciliation, but still reported no exceptions.
    •   Untimely Resolution of Issues—We noted certain issues within the Centers’ submissions
        that had been identified for several months but had not been resolved in a timely fashion.
        Per discussions with Center management, in most cases, the issues had been forwarded to
        Headquarters either with a service request or the need for Headquarters guidance, but the
        Center was awaiting guidance. NASA Headquarters management indicated that many of
        the issues are currently being tracked through service requests and expected resolution to
        occur in the coming months.
    •   Lack of Approval Sign-Off—In certain cases, we noted that appropriate reviewer sign off
        was not included in the documentation provided by the Center.
    •   Insufficient Quality Control Procedures—During FY 2007, we noted that although
        updated guidance was issued and training had taken place for Center personnel,
        Headquarters management had not implemented a routine process to perform a quality
        review of the procedures performed. Management has indicated that this process
        supports many of the adjustments recorded during the financial statement preparation
        process; therefore, the quality of the process is critically important.
                                                  Ernst & Young LLP
!@
Report on Internal Control
Page 8


    •   Lack of Noted Corrective Actions for Issues Noted—In many cases, we noted that a
        corrective action to resolve exceptions was not included on the summary. These
        corrective actions should include the name of the individual who would be responsible
        for ensuring resolution, the actions to be taken, and an estimate of time expected in
        resolving the issue. During FY 2007, NASA management implemented enhanced
        procedures to include corrective actions on its summaries.
    •   Further Guidance Needed—During our review of the June and September 2007 periodic
        monitoring packages submitted by the Centers, we noted continued confusion on how
        certain procedures should be performed. For example, we noted a Center had not
        performed a step and indicated that the step should be performed by Headquarters.
        Another Center indicated that it either could not perform certain steps due to lack of
        access to needed reports or lack of guidance by Headquarters. A third Center indicated
        that a report required by guidance from Headquarters could not be used due to data
        integrity issues.

Recommendation

We recommend that NASA Headquarters and Center OCFOs:

    1. Continue to strengthen controls related to its entity-wide structure for account
       reconciliation, analyses, and oversight by providing more in-depth, on-site quality
       reviews of Center and Headquarters financial functions, provide further guidance and
       training of new policies and procedures, periodically requesting the supporting
       documentation to compare to the results communicated, and improve communication so
       that issues may be resolved in a more timely manner.
    2. Continue to offer updated guidance and training to personnel to ensure specific guidelines
       are documented as to the source of data to support the periodic monitoring submissions
       and the financial statements, required follow-up with timetables, and documentation
       retention policies. Further, training should be provided to Center and Headquarters
       personnel to ensure a complete understanding of the financial management system and
       reports that are available to perform certain tasks.

Efforts Needed to Resolve Data Integrity Concerns

During FY 2007, NASA continued to address its data integrity issues through “cleanup efforts”
that took place throughout the year and as part of the FY 2007 financial statement closing
process. Many of these efforts related to issues dating back as early as 2002. Although much
progress was seen during FY 2007, our testing and NASA management continues to identify
similar issues. Specific concerns noted include the following:

    •   Ongoing Data Integrity Efforts—NASA management was unable to complete its efforts
        to resolve certain data integrity efforts and stabilize its systems prior to the fourth quarter.
        For example, we were informed on October 25, 2007, that an additional prior period
                                                Ernst & Young LLP
!@
Report on Internal Control
Page 9


        adjustment was identified and required a restatement of $139 million related to property
        balances. Throughout FY 2007 and as part of its annual financial statement process,
        NASA management recorded thousands of entries to resolve data integrity issues within
        its financial statements. We were unable to gain sufficient assurance through our testing
        that controls were in place throughout the year, that “cleanup” of significant data issues
        was completed, and that balances at September 30, 2007 were fairly stated.
    •   Enhanced Internal Control Needed for Non-routine Journal Entries—During FY 2007,
        NASA management recorded thousands of non-routine entries totaling more than several
        hundred billion dollars at the Centers, the Competency Center, and at the Headquarters
        OCFO. Many of these entries related to efforts to resolve data integrity issues—some
        required entries between proprietary, budgetary, and memorandum accounts; correction
        of errors and mistakes of previously posted entries; or performance of adjusting entries
        related to the financial statement preparation process. During our review of the non-
        routine entries, we noted no formal policies and procedures were available. Additionally,
        we noted that documentation was not always available to support the purpose of the
        entries, the cause, and at what level the entry was approved. Finally, we noted that
        enhanced monitoring by the Headquarters OCFO is needed to ensure that journal entry
        activity is properly approved and appropriate. For example:
        o We noted several instances where entries were being performed at the Center level,
          and Headquarters OCFO subsequently noted errors in the entries requiring adjusting
          entries during the quarterly close process. In one case, we noted one Center had
          recorded an entry that posted the debit to the budgetary trial balance and the credit to
          the proprietary trial balance. Headquarters OCFO identified the mistake through its
          quarterly analytical tools and corrected it. The entry should have been disapproved at
          the approval point or through a system edit, since split entries between budgetary and
          proprietary are not proper.
        o Another example related to postings of thousands of entries to resolve issues related
          to closed appropriations that were recorded as part of management’s data integrity
          cleanup efforts. NASA management was unable to readily provide documentation to
          support the journal entries, as it was not compiled until after we had asked for it.
        o Additionally, when we inquired about certain non-routine entries identified in
          NASA’s financial system, Headquarters OCFO could not locate the entries within the
          system nor provide documentation to support the purpose of the entries.
          Headquarters OCFO was unable to locate the entries within the system that were
          identified as part of our journal entry analysis, but NASA’s Competency Center was
          able to access the entries.
        o Finally, we noted that certain entries recorded through the quarterly financial
          statement preparation process were not fully supported by the Centers’ periodic
          monitoring controls process. Although the Center performs research to identify
          issues during the monthly periodic monitoring process and reports it to Headquarters,
          the summation of the Centers’ identified weaknesses from the periodic monitoring
          controls did not agree to the adjustment posted by Headquarters OCFO.
                                                Ernst & Young LLP
!@
Report on Internal Control
Page 10


        On October 24, 2007, NASA management issued guidance—Financial Management
        Requirements, Volume 6, Chapter 11, Journal Voucher Preparation and Approval, dated
        October 2007—related to the preparation and execution of journal vouchers.
        Management indicated that this should enhance internal controls related to non-routine
        journal entries.
    •   Delayed Grant and Contract Close-outs—As reported in the past, we noted numerous
        grants and contracts, that had periods of performance ending prior to FY 2007, which had
        not officially been closed due to limited resources available for follow-up of missing or
        incomplete documentation from the vendor/grantee and a significant backlog of amounts
        awaiting de-obligation. For several years, NASA has utilized an outside contractor to
        resolve the large backlog. For grants, because of the delay of close-out within the grant
        system and anomalies in how grant drawdowns are distributed, activity costs of current
        grants were being posted as current expense against the expired grant obligation. As of
        September 30, 2007, we noted over 4,000 grants with outstanding undelivered orders of
        approximately $140 million, and over 4,000 contracts with outstanding undelivered
        orders of approximately $365 million that were past their period of performance and still
        awaiting closeout and de-obligation. Further, we noted several grant and contract sample
        items where requested supporting documentation was not available or not part of the
        official file.
    •   Limited Monitoring of Undelivered Orders and Accounts Payable—Although the
        periodic monitoring package includes a quarterly step to review unliquidated obligations
        and accounts payable, and management developed an aging report in FY 2007 to ensure
        balances recorded in NASA’s financial system are valid and supportable, we continue to
        note numerous unliquidated obligations and accounts payable that were greater than one
        year old. Many of these items relate to travel where travelers have not submitted their
        vouchers in a timely fashion or residual balances exist from vouchers that have been
        filed.
    •   Periodic Monitoring Packages Identify Continued Issues—During our reviews of the
        Centers’ periodic monitoring packages throughout the year, we noted numerous entries
        from the Centers where data integrity issues still required assistance from Headquarters
        or the Competency Center to resolve identified issues. For example, certain Center
        personnel continue to identify abnormal balances within the financial accounting system.
        As of September 30, 2007, 37 service requests existed to resolve issues identified through
        the periodic monitoring package submissions.

Recommendation

We recommend that NASA continue to develop and refine its financial management systems and
processes to improve its accounting, analysis, and oversight of financial management activity.
Specifically, we recommend that NASA:

    1. Continue to strengthen controls related to its entity-wide structure for account
       reconciliation, analyses, and oversight (periodic monitoring package) by providing more
                                                Ernst & Young LLP
!@
Report on Internal Control
Page 11


        in-depth on-site quality reviews of Center and Headquarters financial functions,
        providing further guidance and training of new policies and procedures, periodically
        requesting the supporting documentation to compare to the results communicated, and
        improving communication so that issues may be resolved in a more timely manner.
    2. Enhance internal control surrounding manual non-routine entries, including requiring a
       log of all manual entries and preparing documentation that is readily available to support
       the entry and the approval by upper management.
    3. Strive to stabilize data in its Core Financial Module, making sure that significant non-
       routine adjustments, related to data integrity, are not required especially during the last
       two quarters of FY 2008 and going forward. Additionally, NASA should continue to
       validate its data, and when issues are identified, complete service requests related to data
       integrity and configuration and design issues timely.
    4. Continue to improve its process to more timely close expired travel, grants, and contracts.
       Determine if accruals are necessary for potential disallowed costs and final invoices once
       close-out has occurred. For ongoing contracts and grants, more completely assess the
       need for an accrual at each reporting period.
    5. Continue to devise short-term and long-term resolutions to systematic and integration
       issues that complicate use of the IEMP.
    6. Continue to focus on filling vacancies within the financial management organization to
       enhance overall performance and develop a core team of highly qualified individuals with
       experience in NASA’s financial management processes.
    7. Continue to offer updated guidance and training to personnel to ensure specific guidelines
       are documented as to the source of data to support the periodic monitoring submissions
       and the financial statements, required follow-up with timetables, and documentation
       retention policies. Further, training should be provided to Center and Headquarters
       personnel to ensure a complete understanding of the financial management system and
       reports that are available to perform certain tasks.

Processes in Estimating NASA’s Environmental Liability Continue to Require Enhancement

During our review of NASA’s environmental liability estimated at $907 million as of September
30, 2007, and related disclosures to the financial statements, we noted continued weaknesses in
NASA’s ability to generate an auditable estimate of its environmental cleanup costs, including its
unfunded environmental liability (UEL) estimate. Specifically,

    •   No formalized process is in place to ensure federal accounting requirements are reviewed
        for environmental matters so that NASA’s own policies, procedures, guidance, and
        training are updated in a timely manner. During our FY 2007 audit we continued to note
        that NASA does not have a process and controls surrounding how it identifies and
        estimates environmental cleanup costs in accordance with Statement of Federal Financial
        Accounting Standards (SFFAS) No. 6, Accounting for Property, Plant, and Equipment.
                                                 Ernst & Young LLP
!@
Report on Internal Control
Page 12


    •   NASA management’s review of the UEL estimate is not functioning adequately to
        identify inconsistencies or mistakes.
    •   NASA does not have a documented software assurance program or software verification
        and validation (V&V) for the Integrated Data Evaluation & Analysis Library (IDEAL)
        software it uses to estimate its environmental cleanup costs. In addition, NASA has not
        established formal controls and documented audit trails between itself and its third-party
        service provider or with its internal users who have the ability to modify key parameters
        within the IDEAL.

The following sections describe each bullet in more detail.

Weaknesses Noted in NASA’s Process for Assessing Financial Requirements for Environmental
Cleanup Matters and Providing Adequate and Timely Guidance to its Centers/Facilities

During the audit, we noted PP&E did not have environmental cleanup costs or decommissioning
costs estimated in accordance with SFFAS No. 6. For example, there are no costs estimated for
the cleanup of treatment systems and oxidizers, building components that will require cleanup
upon closure (e.g., non-friable asbestos), and laboratories. While NASA has begun reviewing
some of the specific examples provided in previous audits (e.g., storage tanks), the agency needs
to identify and address all PP&E that could potentially be impacted by this standard (e.g.,
buildings, equipment, regulated units).

As this requirement affects a large percentage of NASA’s PP&E (including the Space Shuttle
program), it is unknown as to the potential cost impact to the agency. While NASA indicated
that some of these costs are likely to be immaterial, it did not provide any documentation to
support its position.

NASA has indicated that it will assess this issue by September 30, 2008, and make the
appropriate changes. While this is intended to address the specific issue with SFFAS No. 6, we
are concerned that NASA’s lack of process for identifying the appropriate accounting regulations
as they apply to environmental matters may allow additional omissions.

Issues Continue to be Identified in the Design and Implementation of Internal Controls
Surrounding Environmental Cleanup Costs

During our FY 2007 audit we noted continued weaknesses in NASA’s controls in developing UEL
estimates. For example:

    •   Continued confusion over the definition and classification of contingent liabilities: We
        noted continued confusion over the definition and classification of contingent liabilities.
        For example, during its annual Remedial Project Managers (RPM) training, NASA
        indicated that “probable” and “estimable” liabilities are not contingent liabilities when in
        fact under the federal accounting standards, the entire UEL is a contingent liability.
                                                 Ernst & Young LLP
!@
Report on Internal Control
Page 13


        During our fieldwork, we noted documentation that indicated that since portions of an
        estimate were “contingent liabilities,” they should be removed from the UEL estimate. In
        addition, at three Center/facilities we noted that the “reasonably possible” liabilities were
        listed as the only contingent liabilities at that location.
    •   Limited quality reviews by Center CFOs of RPM estimates: Historically, the
        Headquarters OCFO indicated that it lacked sufficient environmental skills to review the
        UEL estimates. While we agree with OCFO with respect to the environmental technical
        review, we would anticipate that they would review the estimates for appropriateness
        with GAAP and with its own “Review and Verification” checklist. During our fieldwork,
        we noted that the OCFO selected a statistical sample of UEL estimates to review and it
        developed a checklist to standardize its review. The checklist primarily focused on the
        adequacy of documentation and did not include questions that would help the Center and
        Headquarters OCFO assess the appropriateness of the estimate with GAAP (e.g.,
        explanation of changes, probable versus reasonably possible, full-cost accounting, the use
        of better information when available). In addition, while the OCFO checklist focused on
        documentation, we noted that documentation was not always readily available to support
        the estimate and that some documentation was inconsistent with GAAP (e.g., notations
        that an item was a “contingent liability” and that it should be removed from the UEL). In
        addition, as NASA indicated that the printed IDEAL reports should not be relied upon for
        audit testing, and the Center OCFOs do not have access to IDEAL, it is unclear as to how
        the Center OCFOs can conduct an effective review.
    •   Inadequate financial guidance: During our review we noted that NASA’s financial
        guidance to its field personnel required enhancements. For example, for NASA’s full
        cost accounting: we were informed that NASA’s Financial Management Requirements
        (FMRs), as they apply to full cost accounting, are out of date. The current guidance is in
        a Microsoft PowerPoint presentation that has not been translated to a volume of the FMR.
    •   Informal EMD advocate reviews: While the Environmental Management Division
        (EMD) advocates performing a 100% review of the UEL estimates for technical matters,
        this review is informal and does not include formal analysis of year-to-year changes and a
        review of the support for key inputs, an assessment of the reason for overriding errors and
        warnings in IDEAL, and a review of key input support. During our fieldwork we noted
        that:
            o The Kennedy Space Center identified and recorded a $55.9 million cost estimate
              for pumping and treating groundwater, when a better estimate of $112.4 million
              was supported by a study that NASA had submitted to the Florida Department of
              Environmental Protection. This was $56.5 million more than what NASA had
              estimated using its parametric estimating software. NASA recorded the
              adjustment once we brought the adjustment to Headquarters OCFO’s attention.
            o The White Sands facility could not readily reconcile the reasons for the changes
              in its current estimate compared to last year for all of its projects during our site
              visit.
                                                 Ernst & Young LLP
!@
Report on Internal Control
Page 14


            o Warning and error messages in the estimating software (IDEAL) were overridden
              with no supporting documentation or notations as to the reason for approving the
              override.

IDEAL Software Assurance, Controls, and Audit Trails

NASA uses the IDEAL cost-estimating software to estimate its UEL and its related costs in its
financial statements and disclosures. The IDEAL software provides NASA with several
capabilities, including: (a) the ability to generate estimates using a parametric cost-estimating
approach when better information is not available, (b) the ability to aggregate cost data, and (c)
the ability to apply uniform markups and contingencies to UEL estimates.

IDEAL operates in a client/server environment. The server resides at a third-party service
provider location where it is maintained and updated. NASA’s users enter data in their local
computers with the option to modify key parameters in the IDEAL host application through the
“User Defined Interface,” or UDI, prior to processing. After the data is processed by IDEAL, the
system returns the results for viewing either electronically or through printed reports.

During our review of IDEAL, we noted the following:

    •   Software Assurance Program: There is no software assurance program, including a
        software V&V, for IDEAL. As such, there is no support for determining whether IDEAL
        is generating a reasonable estimate.
    •   Security Plan: NASA has not formalized its minimum-security plan for the application.
    •   Service Provider Controls: There are no formal, documented controls between NASA
        and its IDEAL service provider. Therefore, as the host application is updated based on
        improvements to the model, the estimates can change without documented audit trails.
    •   Software Controls: There are no controls associated with the UDI. Therefore, users can
        modify the parametric equations within IDEAL and the system’s error and warning
        messages without detection, as there are no controls and the application does not generate
        an audit trail.
    •   Inadequate Audit Trails and Documentation: NASA has indicated that the printed reports
        generated by IDEAL should not be relied upon for audit testing. As NASA does not have
        formal controls over the host application and the printed reports are not to be relied upon,
        there are inadequate audit trails and documentation to support historic transactions.

Recommendation

As it relates to the estimation of environmental liabilities, we recommend that NASA:
                                                Ernst & Young LLP
!@
Report on Internal Control
Page 15


    1. Finalize work plans and implement internal control and monitoring processes to ensure
       compliance with requirements within SFFAS No. 6, Accounting for Property, Plant, and
       Equipment, related to decommissioning costs.
    2. Designate a lead team, inclusive of members from the Centers, EMD, and OCFO, for
       performing self-assessments and monitoring of the implementation and adherence to
       financial policies and requirements as they relate to environmental activities. This should
       include self-assessments of the UEL estimation and aggregation process to identify and
       correct remaining weaknesses in the UEL process.
    3. Consistent with NASA estimating its UEL liability at mid-year and then updating it at the
       end of the year for significant changes, we recommend that NASA perform the remainder
       of its environmental activities using the same timeline (e.g., estimate reasonably possible
       estimates and disclosures at mid-year and update at the end of year). This will allow
       adequate time for an effective review.
    4. Complete verification and validation assessments of the IDEAL program including an
       assessment of security and controls over the application.
    5. Develop a process to ensure consistent year-to-year audit trails and documentation
       supporting judgments made in calculating the UELs.
    6. Continue to offer updated guidance and training to personnel involved in the estimation
       of environmental liabilities.

Financial Management Systems Not in Substantial Compliance with FFMIA

NASA’s financial management systems are not substantially compliant with the Federal
Financial Management Improvement Act (FFMIA) of 1996. During FY 2007, as discussed
above, NASA management took steps to address its noncompliance with the FFMIA, including
upgrading its Core Financial Module. Although these steps corrected certain weaknesses noted
during the past four years, other weaknesses still exist. For example, NASA’s Core Financial
Module still lacks integration with certain subsidiary systems, including PP&E, has certain
weaknesses within its general and application security controls, and contains configuration issues
that result in inappropriate transactional postings. Additionally, the financial management system
continues to impair NASA’s and the Centers’ abilities to adequately support and analyze account
balances reported. Specific weaknesses noted include the following:

    •   Certain subsidiary systems, including all property systems (i.e., NEMS, NRPDB, and
        CHATS), are not integrated with the Core Financial Module and are not complemented
        by sufficient manual preventative and detective controls.
    •   NASA’s management continued to identify certain transactions that are being posted
        incorrectly due to improper configuration or design within the Core Financial Module.
        As of September 30, 2007, NASA management identified 37 service requests awaiting
        completion to address certain issues within its Core Financial Module. Additionally,
        during our review of the Centers’ periodic monitoring packages, the Centers identified
                                                Ernst & Young LLP
!@
Report on Internal Control
Page 16


        abnormal balances within the general ledger, including differences between the financial
        information (FI) module and the funds management (FM) module, both residing within
        the IEMP. These discrepancies existed due to journal entries not being properly mapped
        to both modules when posted. Finally, during our review of journal entries within the
        Core Financial Module, we noted certain data element fields were either missing
        information or the information was inaccurate. For example, in some cases, we noted that
        NASA had not included the fund type, business area, purchase order, or vendor within
        the system for certain entries.
    •   NASA was unable to meet certain requirements to ensure compliance with federal
        accounting standards, as discussed in various sections within this report.
    •   The Office of Inspector General of NASA (OIG) identified certain issues related to
        systems as part of its Federal Information Security Management Act (FISMA) and other
        OIG projects.

NASA has indicated in its assurance statement that it believes its systems are non-compliant with
requirements of the FMFIA. NASA believes that planned corrective actions for FY 2008 will
address many of the remaining issues.

Recommendation

We recommend that NASA:

    1. Continue to resolve issues identified in the general and application controls surrounding
       its financial management systems. Additionally, we recommend that NASA continue to
       ensure that its compensating controls surrounding its integration of systems and
       segregation of duties issues are operating effectively to prevent, or detect and correct
       errors. NASA should monitor that its internal control activities, including periodic
       reconciliations and analysis, are performed to ensure that further data issues do not lead
       to difficulties in processing transactions and preparing accurate reports in the months and
       possibly the years to come.
    2. Continue to devise short-term and long-term resolutions to systematic and integration
       issues that complicate use of the IEMP. NASA should continue to assess whether
       systems used to prepare the financial statements have been sufficiently tested prior to
       year-end reporting dates.
    3. Continue to resolve issues, as discussed throughout this report, which impair NASA’s
       ability to meet the requirements of the FFMIA.

Weaknesses in Information Technology General and Application Controls

Issues related to access controls and segregation of duties were noted within the IEMP
environment. The level of risk associated with these information technology issues depends in
part upon the extent to which financial-related compensating controls (such as reconciliations
                                                 Ernst & Young LLP
!@
Report on Internal Control
Page 17


and data integrity reviews of output) are in place and operating effectively throughout the audit
period. Certain of these controls designed to detect errors or inappropriate processing may also
not be executed in a manner that can be expected to identify errors, which, while perhaps not
material to the financial statements as a whole, may subject NASA to risks regarding
safeguarding of assets.

Within the context of the overall weaknesses identified in the control environment referenced in
the accompanying comments and although NASA has made progress in addressing and resolving
prior year information technology findings, these information technology-related issues, along
with issues noted by Ernst & Young, Government Accountability Office (GAO) and NASA OIG
in their review of the SAP Version Update (SVU) project merit continued management focus.

Recommendation

We recommend that NASA continue to resolve issues identified in the general and application
controls surrounding its financial management systems. Additionally, we recommend that
NASA continue to ensure that its compensating controls surrounding its integration of systems
and segregation of duties issues are operating effectively to prevent, or detect and correct errors.
NASA should monitor that its internal control activities, including periodic reconciliations and
analysis, are performed to ensure that further data issues do not lead to difficulties in processing
transactions and preparing accurate reports in the months and possibly the years to come.

Enhancements Needed for Controls over PP&E and Materials (Modified Repeat
Condition)

Consistent with prior year audit reports, our review of PP&E identified serious weaknesses in
internal control that, if not corrected, could prevent material misstatements from being detected
and corrected in a timely manner. As stated in the prior years audit reports, NASA’s process for
recognizing and accounting for fixed assets relied primarily on a retrospective review of
disbursements to determine amounts that should be capitalized and continues to be heavily
dependent on activities at its contractors to recognize any assets created at its contractors. Also,
NASA’s lack of integrated and comprehensive property systems limits it ability to record, track,
and monitor property and property-related transactions as they occur throughout the entire
property transaction life cycle. Furthermore, NASA’s monitoring and detect control procedures
at the OCFO, the Center finance office, and beyond need further strengthening.

During fiscal year 2007, we noted that NASA continues to work toward resolving issues
identified in the past related to PP&E. Highlights of those improvements from NASA
management’s perspective include:

    •   The development of a new capitalization policy for PP&E to recognize the research and
        development nature of NASA’s projects. This new policy that will be implemented in
        FY 2008 is planned to allow NASA to assess which projects will result in capitalized
        items.
                                                Ernst & Young LLP
!@
Report on Internal Control
Page 18


    •   Revisions to business processes to identify capital acquisitions at the beginning of the
        acquisitions life cycle through disposition by the use of a unique work-breakdown-
        structure (WBS) element. The revised business processes to be implemented in FY 2008
        is scheduled to allow NASA to identify and track capital acquisitions from requisition
        through costing process.
    •   The development of a mechanism to identify capital acquisitions at project inception
        through the use of NASA Form (NF) 1739, Alternative Future Use Questionnaire, to be
        implemented as part of the new PP&E capitalization policy. The NF 1739 is intended to
        facilitate the identification of capital assets at the inception of a project.
    •   Revisions to contractor cost reporting requirements (i.e., NF 533) to establish a one-to-
        one relationship for reporting costs of capital assets. The revised NF 533 reporting is
        planned to facilitate recording costs for capital asset acquisitions on a unique WBS
        element and will be implemented in FY 2008.
    •   Coordination with the Integrated Asset Management (IAM) Development Team to ensure
        all business process changes were integrated in the development of asset management
        functionality in the core financial system to be released sometime in FY 2008. IAM is
        scheduled to automate real time asset accounting and is planned to enable tracking asset
        values at the individual asset level. IAM is also intended to provide a linkage between
        equipment master records with the financial asset master record.
    •   Extensive training provided to NASA communities and contractors impacted by new
        PP&E policy and process changes during the third quarter of FY 2007.
    •   Revisions were made in November 2006 to the FMR PP&E Chapter to establish the
        requirement for supervisory review and sign-off of journal vouchers prior to their posting
        in the Core Financial Module, and revisions to the Property Checklist to include the
        communication requirement and due dates for Headquarters OCFO to provide
        correspondence to the Centers.

Pending completion of draft policies, procedure changes and the implementation and acceptance
of these, as well as property-system enhancements (i.e., IAM), further emphasis on internal and
external control processes at Headquarters, the Centers, and the contractor locations is needed to
ensure that property-related amounts reported in its financial statements are reliable and
complete.

While NASA has undertaken efforts to improve its accountability of property, we continued to
note evidence of significant weaknesses in the property area. The weaknesses we noted during
FY 2007, most of which are consistent with last year’s audit report, fundamentally flow from not
previously determining at the point of budget formulation, obligation recognition, contract
development, accounts payable recognition, or disbursement the amounts of property NASA
expects to buy, has contracted for, or has purchased. Rather, NASA, throughout 2007, waited
until the entire transaction cycle was complete to obtain disbursement data for capitalization or,
in the case of contractors, relied on them to do so. Also NASA’s property systems are not
integrated with the Core Financial Module. Furthermore, NASA has not demonstrated how it
                                                Ernst & Young LLP
!@
Report on Internal Control
Page 19


will ensure the completeness and accuracy of its property balances recorded prior to the
implementation of its new policies and procedures. Insufficient internal controls and other
matters surrounding (1) Space Exploration Equipment, specifically related to Contractor-Held
PP&E; (2) Space Exploration Equipment, including the International Space Station and Shuttle
(formerly NASA-Held Theme Assets); and (3) General PP&E (formerly NASA-Held Real and
Personal Property) are addressed in more detail below:

(1) Space Exploration Equipment related to Contractor-Held PP&E (formerly Contractor-Held
    PP&E)

The reliance upon NASA’s contractors to report property values at periodic intervals during the
year without robust agency-wide detect controls to ensure the reliability and validity of those
property values may increase the probability of errors and deficiencies not being detected by
NASA or reported by contractors. Throughout the year, the Headquarters OCFO’s Property
Branch personnel and Centers’ Property Accountants perform certain high-level analytical
analyses and monitoring procedures of property balances and transactions reported by NASA’s
largest contractors that report monthly in the Contractor-Held Asset Tracking System (CHATS).
This monitoring process, however, still lacks a full integration of NASA’s procurement and
scientific community, with whom contractor accountability primarily resides, and does not
include reconciliations to the costs being incurred by these contractors via the monthly NF 533
reporting process to the property balances reported monthly in CHATS and annually via the NF
1018. The subsequent review and dependence on contractor reporting increases the risk that
related costs will not be properly captured and capitalized. Furthermore, since CHATS is not
integrated with NASA Core Financial Module, each month management records the property-
related activity reported by the contractors via a manual journal voucher process.

For the past several years, the Headquarters OCFO has utilized the Defense Contract Audit
Agency (DCAA) as its primary quality assurance mechanism over NASA’s contractors by
performing agreed-upon procedures on a sample of the June 30, 2007 property balances and a
sample of FY 2007 transactions. The most significant finding reported by DCAA this fiscal year
was that the value of one contractor’s Work in Process (WIP) balances as of June 30, 2007, was
understated by $928 million due to several factors, including the incorrect use of unit costs,
finished goods and materials not including a 15% fee, and incorrect unit costs reported on
property transferred to another contractor. There were also other nominal dollar errors reported
by DCAA, as well as differences noted between CHATS and the contractors’ property systems
and evidence of failures to adhere to required policies and procedures to report corrections timely
to NASA personnel. Although the Headquarters OCFO utilizes the DCAA as its primary quality
assurance mechanism over NASA’s contractors, the procedures that DCAA performed cannot be
relied upon by NASA management alone to ensure the reliability and validity of contractor-held
property values.

Consistent with prior year audit reports, NASA has not performed reconciliations to the costs
being incurred by its contractors via the NF 533 reporting process to the property balances
reported monthly in CHATS and annually via the NF 1018 in the current fiscal year. The NF
                                                Ernst & Young LLP
!@
Report on Internal Control
Page 20


533 cost reports and/or invoices submitted by contractors do not require the portion of the costs
that relate to the purchase of an asset and operating materials and supplies to be specifically
identified. NASA has revised, but not yet implemented, new contractor cost reporting
requirements to establish a one-to-one relationship for reporting costs of capitalized property in
order to facilitate the recording of costs for capitalized property acquisitions on a unique WBS
element level within SAP. Also, as previously mentioned elsewhere in this report, management
has revised its PP&E capitalization policy for new acquisitions to identify costs that need to be
capitalized starting at the budget/procurement cycle through to the processing and disbursing of
funds as the transaction is processed. However, it is unclear as of yet how the alignment and the
specificity of the WBS elements will correlate to the accounting for the contractor’s costs under
the authoritative literature on property-related transactions. Also, NASA management has not yet
demonstrated how the new contractor cost reporting requirements and PP&E capitalization
policy, when fully operational, will provide sufficient specificity in NASA’s purchasing activity
to facilitate tracking and reporting of all types of property-related transactions as projects are
initiated and disbursements are made. Until NASA successfully implements these new policies
and procedures, NASA will continue to experience difficulties in recording property-related
balances and transactions and ensuring their completeness. Furthermore, NASA has not
demonstrated how it will ensure the completeness and accuracy of its property balances recorded
prior to the implementation of its new policies and procedures.

Management’s processes at NASA Headquarters to accumulate, calculate, and record
transactions related to the depreciation on Space Exploration Equipment maintained by
contractors are heavily reliant upon Excel spreadsheets, which can be subject to input or
formulaic errors and are not complemented with robust controls to prevent and detect such errors
from occurring. We again noted errors during our review of these schedules during the current
fiscal year, which management subsequently corrected. Although NASA management is
currently developing an automated depreciation tool, additional controls are needed immediately
to prevent these errors from recurring, with a longer-term goal to develop more comprehensive
oversight controls once the tool is implemented.

Recommendation

We recommend that NASA:

    1. Develop more robust detect and monitoring controls beyond the high-level monthly
       validation procedures performed by NASA Center personnel and the annual DCAA
       agreed upon procedures and to compensate for the lack of CHATS integration with the
       Core Financial Module to ensure timely detection and correction of errors as well as
       completeness of property-related balances and transactions reported by NASA’s
       contractors.
    2. Continue to review, monitor, and refine the implementation of its new PP&E
       capitalization policy to ensure its effectiveness in capturing, recording, and reporting
       acquisitions of new property throughout the entire transaction life cycle. Periodic
       reporting of NASA’s progress on this matter to key stakeholders is recommended.
                                                Ernst & Young LLP
!@
Report on Internal Control
Page 21


        NASA must also clearly demonstrate that the obligation documents and expenditures are
        coded to identify whether they relate to a property acquisition to create a record for
        comparison to recorded property transactions and the CHATS subsidiary ledger.
        Furthermore, NASA Headquarters OCFO must involve the procurement and scientific
        community as a part of the post-implementation process.
    3. Implement, review, monitor, and refine the revised contractor cost reporting requirements
       to ensure its effectiveness in capturing and reconciling all costs for capitalized property
       from the NF 533 reports to the monthly CHATS and annual NF 1018 property reports.
       NASA Headquarters OCFO must also involve the procurement and scientific community
       as a part of the post-implementation process.
    4. Clearly demonstrate how it has ensured the completeness and accuracy of its contractor-
       held property balances recorded prior to the implementation of its new PP&E
       capitalization policy and revised contractor cost reporting requirements.
    5. Illustrate how the alignment and the specificity of the WBS elements recorded in SAP
       will correlate to the accounting for the contractors’ capitalizable costs under the
       authoritative accounting literature on property-related transactions, including assessing
       whether specific disbursements related to Research and Development (R&D) projects
       acquire assets that will meet the definition of general PP&E (i.e., because they can be
       reused).
    6. Develop additional controls over the depreciation expense calculations and processes at
       NASA Headquarters prior to the implementation of an automated solution, with a longer-
       term goal to develop more comprehensive oversight controls once that automated
       platform is implemented.

(2) Space Exploration Equipment, including the International Space Station and Shuttle
    (formerly NASA-Held Theme Assets Operational and WIP)

As noted in prior year reports, NASA began revisiting its accounting policy for Theme Assets
(now known as Space Exploration Equipment) in FY 2004 as to whether these project costs met
the characteristics of general PP&E as defined in the Federal Accounting Standards Advisory
Board (FASAB) Statements of Federal Financial Accounting Standards (SFFAS) No. 6,
Accounting for Property, Plant, and Equipment or were more akin to R&D as defined in
Financial Accounting Standards Board (FASB) Statement of Financial Accounting Standards
(SFAS) No. 2, Accounting for Research and Development Costs. During FY 2006, NASA
management finalized its position and sought interpretation from the Accounting and Audit
Policy Committee (AAPC) of FASAB as the due course in resolving technical federal
accounting matters where existing guidance was not clear. In response to NASA’s request for
interpretation, the AAPC issued Technical Release No. 7, Clarification of Standards Relating to
the National Aeronautics and Space Administration’s Space Exploration Equipment, on June 1,
2007. Accordingly, management acted upon the final technical ruling and recorded a $12.7
billion adjustment to write off the net book value of prior period capitalized assets that in
management’s belief were more properly classified as R&D and had no alternative future use.
                                                Ernst & Young LLP
!@
Report on Internal Control
Page 22


Management concluded that this change in accounting policy was justified as preferable under
SFFAS No. 21, Reporting Corrections of Errors and Changes in Accounting Principles, because
the AAPC provided clarification with respect to SFAS No. 2, and thus was not required to restate
prior period financial statements. In addition, management recorded an additional $1.8 billion
adjustment during the fourth quarter of FY 2007 in applying this same change in accounting
policy to FY 2007 activity on those theme projects designated as R&D.

After applying the change in accounting policy, management has effectively concluded that only
two theme projects still met the definition of general PP&E: the International Space Station (ISS)
and the Space Shuttles (Shuttle), including their ancillary equipment. As of September 30, 2007,
Space Exploration Equipment, net of accumulated depreciation, is $18.5 billion. The ISS and
Shuttle will continue to be operational and depreciated through FY 2016 and 2010, respectively,
based upon management’s estimated useful lives for these assets. However, as noted in the
Space Exploration Equipment related to Contractor-Held Property, Plant & Equipment section
above and as reported by the GAO over the past several years, management will continue to be
challenged to appropriately capture and record related capitalizable costs to account for and
reconcile NF 533 cost reports to the capitalized asset values and to ensure the completeness of
the ISS and Shuttle asset balances for the foreseeable future. Management’s approach to
assessing which portions of the theme projects will meet the definition of general PP&E is
evolving. The process used to assess the amount initially classified as R&D in connection with
the change in accounting policy lacked rigor in definitively assessing whether certain equipment
could be used in future R&D projects.

From an OCFO Headquarters accounting process standpoint, the manner in which NASA
accumulates related costs to track and record the International Space Station and Space Shuttles
is based upon Excel spreadsheets that are not integrated with NASA Core Financial Module. In
addition, the OCFO Headquarters’ processes to accumulate, calculate, and record transactions
related to the depreciation on Space Exploration Equipment are also heavily reliant upon Excel
spreadsheets, which can be subject to input or formulaic errors and are not complemented with
robust controls to prevent and detect such errors from occurring. We again noted errors during
our review of these schedules during the current fiscal year, which management subsequently
corrected. The automated depreciation tool that NASA management is currently developing will
not include the calculation of depreciation expense on the International Space Station and
Shuttle. Accordingly, more comprehensive controls are needed immediately to prevent these
errors from recurring.

Recommendation

We recommend that NASA:

    1. Specifically cross-reference the observations and recommendations noted above for
       Space Exploration Equipment related to Contractor-Held Property, Plant & Equipment to
       the International Space Station, Shuttle, and other Space Exploration Equipment that
       remains in the custody of NASA’s contractors. In addition to responding to the
                                                 Ernst & Young LLP
!@
Report on Internal Control
Page 23


        recommendations noted in the section above, management needs to develop a detailed
        action plan for each type of Space Exploration Equipment, by separately addressing the
        ISS challenges from the Shuttle and from the other Space Exploration Equipment.
        NASA also needs to clearly demonstrate how it has ensured the completeness and
        accuracy of the ISS and Shuttle balances recorded prior to the implementation of any of
        its new PP&E policies, procedures, and cost reporting requirements.
    2. Develop more comprehensive controls over the accounting processes and depreciation
       expense calculations at NASA Headquarters. The automated depreciation tool that
       NASA management is currently developing will not include the calculation of
       depreciation expense on the International Space Station and Shuttle.

(3) General PP&E (formerly NASA-Held Real and Personal Property)

General PP&E, net, is approximately $2.2 billion at September 30, 2007, and consists of land,
structures, facilities, leasehold improvements, institutional equipment, construction-in-progress,
and internal use software and development that are all NASA-held. For the current fiscal year,
NASA expensed all costs (except for certain construction of NASA-held real property) and then
performed a review of the transactions to determine which costs should be capitalized, similar to
prior years. During our FY 2007 testing, we again noted certain property-related transactions
that were not recorded at the appropriate value based upon the final amount paid to the
vendor/contractor (i.e., a “three-way match” between the purchase order, shipping document, and
invoice was not performed by NASA personnel), the initiation of transactions lacked evidence of
written authorization or lacked required supporting third party evidence (i.e., invoices, contracts),
and loaned-out equipment was inappropriately removed from NASA’s general ledger. In
addition, NASA management is reliant upon a monthly evaluation by Center personnel to
determine which assets should be capitalized for recording these property-related transactions
and also maintains separate subsidiary ledgers (NASA Equipment Management System [NEMS]
and NASA Real Property Inventory [NRPI]) that are not interfaced directly with the Core
Financial Module. Furthermore the current oversight procedures by Headquarters OCFO of
these Center processes are not sufficient to detect and correct errors in a timely manner.

Also, as part of our FY 2007 testing, we attempted to substantiate $3.0 billion or approximately
80% of the General PP&E asset cost balances as of June 30, 2007, by vouching to third-party
evidential documentation. Our sample included land, real property, work-in-process for real
property, and internal use software. We found that in many instances, NASA Centers did not
maintain key third-party financial records (such as invoices, contracts, and NF 533 cost reports)
that could be tied directly to capitalized assets that were acquired beyond the federal general
records retention policy of six years and three months, which was cited by NASA personnel. We
note that the federal property record retention policy goes beyond this time frame. NASA also
could not locate external evidential documentation supporting assets acquired within the general
document retention period totaling $531.5 million or 72% of assets acquired by NASA in this
time frame that were included in our sample. It is uncertain whether NASA Center personnel
maintain any of these key financial records for this subset of assets. The result of the lack of
evidential supporting documentation are further examples of management’s need to place
                                                Ernst & Young LLP
!@
Report on Internal Control
Page 24


additional emphasis on strengthening and enforcing Center-related manual prevent and detect
controls that extend beyond the Headquarters OCFO and Center finance departments, as these
are the baseline controls upon which NASA is reliant.

During our testing, we also identified inconsistencies, out-of-date or incomplete policies, and
procedures related to PP&E in NASA’s FMR. It appears that NASA management is not
reviewing and updating its policies and procedures on a regular basis. The lack of accurate
guidance limits NASA’s ability to perform financial management processes consistently and
adequately, and to identify potential misstatements in a timely fashion. In addition, during the
latter part of the current fiscal year, the NASA OIG issued two memorandums related to NASA’s
inappropriate accounting for property leased to other non-NASA entities and property designated
as “inactive.” One of these issues resulted in management recording a $67 million prior period
adjustment for NASA-owned real properties that had been inappropriately removed from
NASA’s accounting records for lease transactions with other non-NASA entities.

Also, as previously mentioned elsewhere in this report, management has revised its PP&E
capitalization policy that is effective in October 2007 for new acquisitions to identify costs that
need to be capitalized starting at the budget/procurement cycle through to the processing and
disbursing of funds as the transaction is processed. However, it is unclear as of yet how NASA’s
obligation documents and expenditures will be coded to identify whether they relate to a property
acquisition to compare to amounts recorded in NEMS and NRPI. Furthermore, NASA has not
demonstrated how it will ensure the completeness of its property balances recorded prior to the
implementation of its new PP&E capitalization policy or retain records to support its property.

Management’s processes at NASA Headquarters to accumulate, calculate, and record
transactions related to the depreciation on general PP&E are heavily reliant upon Excel
spreadsheets, which can be subject to input or formulaic errors and are not complemented with
robust controls to prevent and detect such errors from occurring. We again noted errors during
our review of these schedules during the current fiscal year, which management subsequently
corrected. Although NASA management is currently developing an automated depreciation tool,
additional controls are needed immediately to prevent these errors from recurring, with a longer-
term goal to develop more comprehensive oversight controls once the automated tool is
implemented.

Recommendation

We recommend that NASA:

    1. Develop more robust detect and monitoring controls beyond the high-level monthly
       validation procedures performed by NASA Headquarters’ OCFO on the monthly
       property-related schedules prepared by NASA Center personnel and to compensate for
       the lack of NEMS and NRPI systems being integrated with the Core Financial Module to
       ensure timely detection and correction of errors, adherence to accounting policies and
       procedures, as well as the completeness of property-related balances and transactions.
                                               Ernst & Young LLP
!@
Report on Internal Control
Page 25


        Regardless of the NASA’s future implementation of the Integrated Asset Management
        Module, management needs to layer in detect and monitoring controls on top of its
        routine processing and recordation of property-related transactions and also extend these
        control requirements to the facilities and logistics departments.
    2. Continue to review, monitor, and refine the implementation of its new PP&E
       capitalization policy to ensure its effectiveness in capturing, recording and reporting
       acquisitions of new property throughout the entire transaction life cycle. Periodic
       reporting of NASA’s progress on this matter to key stakeholders is recommended.
       NASA must also clearly demonstrate that the obligation documents and expenditures are
       coded to identify whether they relate to a property acquisition to create a record for
       comparison to recorded property transactions and the NEMS and NRPI subsidiary
       ledgers. Furthermore, NASA Headquarters OCFO must involve the procurement and
       scientific community as a part of the post-implementation process.
    3. Clearly demonstrate how it has ensured the completeness and accuracy of its General
       PP&E (formerly government-held property) balances recorded prior to the
       implementation of its new PP&E capitalization policy.
    4. Review, revise, and clarify the PP&E sections of the FMR for outdated and incomplete
       sections, as well as for unique and non-routine property transactions entered into by
       NASA, including leases to other non-NASA entities and designation of inactive
       properties, to ensure the appropriate application of the property-related authoritative
       accounting standards is incorporated and communicated to all related personnel.
    5. Adopt a specific property-related retention policy to specify the types of evidential
       documentation (NASA Forms, Invoices, Contracts, NF 533 cost reports, supporting
       spreadsheets, etc.) and related time periods that such documentation should remain in the
       possession of NASA. Further articulation of where that documentation is retained is also
       paramount. Lastly, NASA should publish the property-specific retention policy and
       communicate it throughout the agency to ensure its consistent application.
    6. Develop additional controls over the depreciation expense calculations and processes at
       NASA Headquarters prior to the implementation of an automated depreciation tool, with
       a longer-term goal to develop more comprehensive oversight controls once that
       automated tool is implemented.
                                                         Ernst & Young LLP
!@
Report on Internal Control
Page 26


                                             OTHER MATTERS


                                 Summary of FY 2006 Material Weaknesses

          Issue Area                             Summary Control Issue                         FY 2007 Status


Material Weaknesses
Financial Systems, Analyses,       Internal control related to routine reconciliation,   Modified Repeat Condition.
and Oversight                      analyses, and oversight processes must be
                                   strengthened.
                                   Processes to prepare financial statements need
                                   improvement.
                                   Processes in estimating NASA’s Environmental
                                   Liabilities require enhancements.
                                   Financial management systems not in substantial
                                   compliance with FFMIA.
                                   Efforts needed to resolve data integrity
                                   concerns.
                                   Certain weaknesses noted relating to general and
                                   application controls.
Enhancements Needed for            Controls relating principally to contractor-held      Modified Repeat Condition.
Controls over Property, Plant,     PP&E and materials and NASA-held assets in
and Equipment and Materials        space and WIP need improvement; Headquarters
                                   oversight needs improvement.



                  *        *       *         *        *          *            *    *       *


We also noted certain other matters involving internal control that we will report to NASA
management in a separate letter dated November 13, 2007.

This report is intended solely for the information and use of the management and the OIG of
NASA, OMB, GAO and Congress and is not intended to be and should not be used by anyone
other than these specified parties.




November 13, 2007
Washington, D.C.
                                                          Ernst & Young LLP            Phone: (202) 327-6000
                                                           1101 New York Avenue NW       Fax:     (202) 327-6200
                                                           Washington, DC 20005          www.ey.com




                     Report on Compliance with Laws and Regulations


To the Administrator and the Office of Inspector General
of the National Aeronautics and Space Administration


We were engaged to audit the financial statements of the National Aeronautics and Space
Administration (NASA) as of and for the year ended September 30, 2007, and have issued our
report thereon dated November 13, 2007. The report states that because of the matters discussed
therein, the scope of our work was not sufficient to enable us to express, and we do not express,
an opinion on the consolidated balance sheet as of September 30, 2007, and the related
consolidated statements of net cost and changes in net position and combined statement of
budgetary resources for the fiscal year then ended.

The management of NASA is responsible for complying with laws and regulations applicable to
NASA. We performed tests of its compliance with certain provisions of laws and regulations,
noncompliance with which could have a direct and material effect on the determination of
financial statement amounts, and certain other laws and regulations specified in Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial
Statements, including the requirements referred to in the Federal Financial Management
Improvement Act of 1996 (FFMIA). We limited our tests of compliance to these provisions, and
we did not test compliance with all laws and regulations applicable to NASA.

The results of our tests disclosed no instances of noncompliance with the laws and regulations
discussed in the preceding paragraph, exclusive of FFMIA, that are required to be reported under
Government Auditing Standards and OMB Bulletin No. 07-04.

Under FFMIA, we are required to report whether NASA’s financial management systems
substantially comply with federal financial management systems requirements, applicable federal
accounting standards, and the United States Standard General Ledger (SGL) at the transaction
level. To meet this requirement, we performed tests of compliance with FFMIA Section 803(a)
requirements. However, as noted above, we were unable to complete our audit. Based upon the
results of the tests we were able to complete, we noted certain instances, described below, in
which NASA’s financial management systems did not substantially comply with certain federal
system and federal accounting standard requirements:

   •   The NASA accounting system does not conform to certain federal requirements. Certain
       subsidiary systems, including property, are not integrated with the Core Financial Module
       and are not complemented by sufficient manual preventative and detective controls.




                                A Member Practice of Ernst & Young Global
                                                    Ernst & Young LLP
!@
Report on Compliance with Laws and Regulations
Page 2



    •   NASA’s management continued to identify certain transactions that are being posted
        incorrectly due to improper configuration or design within the Core Financial Module. As
        of September 30, 2007, NASA management identified 37 service requests awaiting
        completion to address certain issues within its Core Financial Module. Additionally,
        during our review of the NASA (Centers) periodic monitoring packages, the Centers
        identified abnormal balances within the general ledger, including differences between the
        financial information (FI) module and the funds management (FM) module, both residing
        within the Integrated Enterprise Management Program (IEMP) system.                 These
        discrepancies existed due to journal entries not being properly mapped to both modules
        when posted. Finally, during our review of journal entries within the Core Financial
        Module, we noted certain data element fields were either missing information or the
        information was inaccurate. For example, in some cases, we noted that NASA had not
        included the fund type, business area, purchase order, or vendor number within the
        system for certain entries.
    •   Data within NASA’s financial system continues to be validated and may not be reliable
        to support NASA’s financial statements. Several prior-period adjustments were recorded
        in FY 2007. Additionally, data was not sufficient to support certain journal vouchers
        recorded within the system. Finally, certain processes, including reconciliations and
        monitoring activities, were not performed in a manner to address identified issues timely.
    •   Reviews of general and application controls over financial management systems
        identified certain departures from requirements specified in OMB Circular A-127,
        Financial Management Systems, and OMB Circular A-130, Management of Federal
        Information Resources. Additionally, the Office of Inspector General of NASA (OIG)
        identified certain issues related to systems as part of its Federal Information Security
        Management Act (FISMA) and other OIG projects. As part of its Federal Managers’
        Financial Integrity Act of 1982 (FMFIA) self-assessment, NASA management has
        identified its financial management system as a material weakness.
    •   NASA was unable to meet certain requirements to ensure compliance with federal
        accounting standards. For example, NASA does not have a process and controls
        surrounding how it identifies and estimates environmental cleanup costs in accordance
        with Statement of Federal Financial Accounting Standards (SFFAS) No. 6, Accounting
        for Property, Plant, and Equipment.

The Report on Internal Control and management letter include information related to the
financial management systems that were found not to comply with the requirements, relevant
facts pertaining to the noncompliance, and our recommendations related to the specific issues
presented. It is our understanding that NASA’s management generally agrees with the facts as
presented and that relevant comments from NASA’s management responsible for addressing the
noncompliance are provided as an attachment to this report. We did not audit management’s
comments and accordingly, we express no opinion on it.
                                                    Ernst & Young LLP
!@
Report on Compliance with Laws and Regulations
Page 3




Because we could not complete our audit, we were unable to determine whether there were other
instances of noncompliance with laws and regulations that are required to be reported.

Providing an opinion on compliance with certain provisions of laws and regulations was not an
objective of our audit, and accordingly, we do not express such an opinion.

This report is intended solely for the information and use of management and the Office of
Inspector General of NASA, OMB, Government Accountability Office, and Congress, and is not
intended to be and should not be used by anyone other than these specified parties.




November 13, 2007
Washington, D.C.
